WAIVER
SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-893
Duane Ronald Belanus

y, Lynn Guyer, Warden

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
l Please enter my appearance as Counsel of Record for all respondents.
[] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed sirice your,a$i4sion):
Signature

'72

7

Date: January 12, 2021
(Type or print) Name

[0 IVIr. j§ Ms. [1] Mrs. [j Miss

Firm Montana Attorney General
Address 215 N. Sanders p.o. Box 201401

City s, State Helena, MT

z.ip59620-1401

Phone 406-444-2026
A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER

IF PRO SE. PLE.ASE INI)ICATE BELOW THE NAME(S) OF THE RF,CIPIENT(S) OF A C(PY

OF THIS FORM. JO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
SEE REVERSE FOR, INFORMATION CONCERNINGITHE STATUS Q[A- CASE -IHE
DOCKET.

CC: Duane Ronald Belanus, pro se

